<html>
<title> - THE TERRORIST THREAT IN NORTH AFRICA: BEFORE AND AFTER BENGHAZI</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
    THE TERRORIST THREAT IN NORTH AFRICA: BEFORE AND AFTER BENGHAZI

=======================================================================

                             JOINT HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                AND THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 10, 2013

                               __________

                           Serial No. 113-33

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
81-870                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Daveed Gartenstein-Ross, director, Center for the Study of 
  Terrorist Radicalization, Foundation for Defense of Democracies     9
Mr. Aaron Zelin, Richard Borow fellow, The Washington Institute 
  for Near East Policy...........................................    21
Daniel L. Byman, Ph.D., professor, Security Studies Program, 
  Georgetown University..........................................    30
Mr. Mike Lovelady, brother of Algerian gas plant terrorist attack 
  victim, Victor Lovelady........................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Daveed Gartenstein-Ross: Prepared statement..................    12
Mr. Aaron Zelin: Prepared statement..............................    23
Daniel L. Byman, Ph.D.: Prepared statement.......................    32
Mr. Mike Lovelady: Prepared statement............................    44

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    68
Question submitted for the record by the Honorable Scott Perry, a 
  Representative in Congress from the Commonwealth of 
  Pennsylvania, and response from Daniel L. Byman, Ph.D..........    70
Question submitted for the record by the Honorable Dana 
  Rohrabacher, a Representative in Congress from the State of 
  California, and responses from:
  Mr. Daveed Gartenstein-Ross....................................    71
  Mr. Aaron Zelin................................................    76
  Daniel L. Byman, Ph.D..........................................    77


    THE TERRORIST THREAT IN NORTH AFRICA: BEFORE AND AFTER BENGHAZI

                              ----------                              


                        WEDNESDAY, JULY 10, 2013

                     House of Representatives,    

         Subcommittee on Terrorism, Nonproliferation, and Trade

         and Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. Subcommittees will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, and extraneous materials for the record subject to 
the length of the limitation rules of the subcommittee. I will 
proceed with my opening statement and then we will have the 
ranking member and the other committee members make comments as 
well.
    There are a lot of things we don't know about the Benghazi 
attack that killed Americans including our Ambassador Chris 
Stevens. During her testimony before Congress earlier this 
year, Secretary Clinton responded to a question over the cause 
of the attack of Benghazi by saying, ``What difference at this 
point does it make?''
    It does make a difference. It makes a difference to the 
victims' families who want justice, and it also makes a 
difference to the United States. Understanding why the attack 
happened does matter. We must respond to any type of violent 
attack that occurs against Americans no matter where it is when 
it is a terrorist attack.
    The morning after the Benghazi attack, I said it on the 
House floor that this was a terrorist attack. Everyone 
including the administration now knows and recognizes that this 
was a terrorist attack. I do look forward to hearing from the 
witnesses today about what the security environment in Libya 
was like, what it was like before the attack, and what 
terrorist groups in Libya were there at the time. Was there any 
indication that a terrorist attack was probable against 
Americans? What was the response of other governments with 
Embassies in Libya to the threat of the terrorist group? And 
what is the American response and has it been any different 
since the days of the attack?
    The security environment in Libya after the attack is also 
important to understand. An FBI team was on the ground in Libya 
investigating, but supposedly it wasn't even safe for them to 
spend much time in Benghazi to determine what happened. I don't 
know how they plan to capture those responsible if they can't 
go to the area where the perpetrators acted.
    At this late date, with all the intelligence that the 
United States has at its disposal, do we know the persons that 
committed these murders? If we do know who they are, why aren't 
they in custody? I have heard from journalists who have 
traveled to Benghazi that the identities of at least some of 
the attackers are known as are their whereabouts. One of them 
openly drank coffee every morning in the same cafe after the 
attack, so why has no one been brought to justice not even at 
this date?
    The idea that four Americans can die on sovereign U.S. soil 
and almost a year later no one has been held accountable is 
contrary to what we stand for in this nation. The United States 
is the most powerful nation in the world. Are we afraid to 
arrest those who commit terrorist acts against the United 
States? There must be consequences for killing Americans. If 
there aren't consequences that just encourages terrorists to 
act even more. Terrorists will grow more daring in their 
attacks and put more Americans in danger if no consequences 
from the United States occur. They should know, all terrorists 
should know that they cannot kill Americans and get away with 
it. As a former judge, I believe that at the courthouse there 
should be justice, and justice should continue, and the long 
arm of American justice should reach to areas where Americans 
are murdered by terrorists.
    We know what happened in Libya did not stay in Libya. In 
May, this subcommittee held a joint hearing on the growing 
crisis in the African region. Arms which the administration 
apparently allowed to be smuggled to extremists' hands during 
the Libyan revolution found their way into terrorists' hands 
throughout the region in North Africa. It wasn't long before 
Mali was overrun with terrorists and the French had to come in 
and prevent the whole country from collapsing. It soon spread 
to Algeria, when on January 16, 2013, an al-Qaeda linked 
Islamic militant group called ``Those Who Signed in Blood'' 
took nearly 800 people hostage at the gas plant in Algeria. 
After a tense, 4-day hostage standoff, Algerian special forces 
raided the facility in an effort to free the hostages, and more 
than 80 people including three Americans were killed. These 
Americans were killed for who they were, because they were 
Americans.
    There are many unanswered questions that remain. Why did 
the United States not take direct action to protect American 
interests and American citizens? Three Americans died. I have 
been told that American forces were within a few miles of the 
facility ready to assist in the rescue but were told to stand 
down. Is this true? And if so, why? Why did we allow the safety 
of our citizens to depend on the acts of another country, and 
why haven't we responded or held anyone accountable for these 
murders that took place in January?
    Today we have with us the brother of one of those victims. 
Mike Lovelady is here with his family, including his wife Wanda 
and Victor's wife Maureen, and their family as well. I want to 
thank the Lovelady family for being here today, and we are all 
sorry for the loss of a loved one, and let you know that Victor 
and the other victims from the Algerian attack will not be 
forgotten, and it is our hope that we find out who committed 
these murders and hold them accountable. But I do want to thank 
the Lovelady family for coming in from Texas to be here today.
    The mastermind behind the deadly attack was allegedly an 
Algerian militant named Mokhtar Belmokhtar. He claimed the 
attack was in retaliation for Algeria's support of the French 
military offensive against Islamist insurgents in neighboring 
Mali. So from Libya to Mali to Algeria it is obvious that 
terrorism is running loose in North Africa. We need to learn 
from our lessons about these terrorist attacks. We should not 
push these attacks behind closed doors and pretend just to move 
on down the road. The families of the four American victims in 
Benghazi have not moved on. The Loveladys have not moved on. 
The FBI investigation has not moved on at all. And the United 
States Congress should not move on until we have answers about 
what happened in Benghazi and what happened in Algeria, not 
until we have justice.
    I will now turn it over to the ranking member Mr. Sherman 
for his opening statements.
    Mr. Sherman. Thank you Mr. Chairman. If I can digress one 
country to the east and talk about Egypt for just a second, If 
we had a functioning democracy and government here in the 
United States, the administration would be conferring with 
Congress as to what would be the best policy and how quickly we 
could modify our statutes in order to have those statutes call 
for the best policy, particularly with regard to our aid under 
these circumstances. Instead we have got White House lawyers 
trying to figure out how to say what happened in Egypt isn't a 
coup. And the entire country will accept that because the 
entire country has reached the conclusion that Congress is so 
dysfunctional that the idea of conferring with Congress and 
having Congress change the statute seems silly when a statute 
can simply be ignored or twisted out of all shape.
    As we work for democracy in the Middle East I look forward 
to focusing on our institutions here. That is why with regard 
to Libya I was so concerned about the enforcement of the War 
Powers Act, which, in an effort to bring democracy to Libya was 
not actually adhered to, which is always a good idea with 
regard to statutes. Focusing again on the past in Libya, we had 
a chance then to demand that the rebels purge from their midst 
the worst elements amongst them. We did not. We were all too 
anxious to see a collection of the best and worst forces of 
Libya overthrow Ghadafi, and now those worst forces exercise 
substantial power particularly in eastern Libya.
    It is thought to be a proof of one's dull-headedness if you 
worry about a few billion dollars here or there when there is 
the great issues of war and peace whereas you can always get a 
few more billion dollars from the American taxpayer. But the 
fact is, we should have insisted that the Libyans pay for the 
overthrow of Ghadafi, the costs that we incurred. We could have 
asked for that pledge early. I met with some of the top people 
during the rebellion, and they said, the message we have is 
don't worry about reimbursing the U.S. taxpayer, just make sure 
you give good deals to U.S. oil companies. At the time I 
thought this gentleman from the Middle East misunderstood my 
government and its objectives. It appears to me now that he 
understood my government better than I do. I look forward to a 
government that focuses on billions of dollars for American 
taxpayers.
    This also focuses our attention on the cost of aid to the 
Iraqi Government, a government which is using billions of 
dollars to pay its debts to Kuwait because Kuwait lent money to 
Saddam Hussein to wage his war against Iran. So we have to give 
money to the Iraqis so they can give money to the Kuwaitis, a 
country that still exists just because we defended them from 
Saddam Hussein, also at our own cost.
    There is substantial argument here in this city about why 
there would seem to be a misstatement of what motivated those 
who attacked our Embassy in Benghazi. I want to put to rest, if 
it can--I don't think it can be put to rest, but at least 
expose the silliness of the idea that this was some sort of 
grand political plan. Because if one says that terrorists hit 
our Embassy in Benghazi, it proves that our foreign policy in 
the Middle East failed to totally defang the terrorists. That 
was always known to be true anyway whether organized terrorism 
was behind Benghazi or not.
    And if there was a spontaneous demonstration touched off by 
a silly YouTube, and offensive YouTube posting, then our public 
diplomacy in the Middle East has failed to the point where a 
YouTube posting can lead to the deaths of Americans, even 
respected Americans. So I would say in either case the Benghazi 
attack demonstrates that our policies in the Middle East have 
not been entirely successful, which does not mean that any 
other policies could have been more successful. It is simply a 
difficult area, and both our public diplomacy efforts and our 
efforts to destroy al-Qaeda are still works in process.
    I look forward to focusing not only on Libya, but on Mali 
and the Tuareg independence movement there, as misguided as it 
is for such a small group, population-wise, to seek 
independence, and the terrorists' exploitation of that. And as 
the chairman pointed out, we need to focus on the Algerian 
attacks. We should look at the security situation in Libya and 
whether the perpetrators of the Benghazi attack will ever be 
brought to justice by either the Libyan Government or American 
drones. And I yield back.
    Mr. Poe. The Chair will now recognize the chairwoman of the 
Middle East and North Africa Subcommittee, Ms. Ileana Ros-
Lehtinen from Florida, for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Judge Poe. 
I am pleased that both of our subcommittees are convening this 
important hearing. And I would also like to express my deepest 
condolences to Michael Lovelady for the loss of his brother 
Victor Lovelady who was killed during the horrendous attack by 
al-Qaeda-linked terrorists in Algeria earlier this year. Our 
thoughts and prayers are with you and with your family, as they 
are with Victor's wife Maureen and their two children Erin and 
Grant.
    With growing instability in North Africa, it is necessary 
to examine the security threats posed by rising extremism and 
deteriorating stability in the Middle East and North Africa 
region, how we got there and where we are going. Sadly, this 
threat is not new. For nearly 20 years I have been trying to 
raise awareness of this very real and growing threat to the 
United States. In April 1995, I was at the time chairman of the 
Africa subcommittee, and I convened a hearing entitled, ``The 
Threat of Islamic Extremism in Africa'' and stated that Islamic 
extremism was on the rise and that militant groups posed a 
growing threat to regional stability, to the fragile 
democracies in the region, and to U.S. national security 
interests. April 1995.
    Almost two decades later not much has changed. The wave of 
radical Islam continues to spread, and the threat posed by al-
Qaeda in the Islamic Maghreb and other foreign terrorist 
organizations is due to the establishment of a base of 
operations in North Africa by taking advantage of the lack of 
security, political will, and the capability of the governments 
in the region.
    To illustrate the expansion of narcoterrorism activities in 
the region, this year we learned that the DEA-led investigation 
leading to the arrest of individuals connected to Guinea-Bissau 
and the FARC were indicted for narcotrafficking and terrorism 
offenses. It is alarming that these individuals indicted were 
charged with conspiring to sell weapons including surface-to-
air missiles which could be used against U.S. military 
personnel in the region. This is why I believe that the DEA 
should have a larger footprint in North Africa to help 
dismantle linkages between drug traffickers and terrorist 
organizations that promote and finance these nefarious 
activities. However, we cannot concentrate only on the security 
front. We must also commit resources and attention to help 
build civil society and strengthen institutions in North 
Africa.
    The Arab Spring began in Tunisia with the self-immolation 
of a disparaged street vendor and Tunisia was believed to be 
the most likely to undergo democratic change. Unfortunately, 
the assassination of one of Tunisia's opposition leader was a 
detrimental blow to the moderate and secular forces in that 
country. In Egypt, the Muslim Brotherhood-led government under 
Morsi failed to demonstrate a commitment to democratic 
principles and hopes for a truly democratic society that 
respected human rights remains in jeopardy. In Libya, the Obama 
administration has yet to hold anyone accountable for the 
terrorist attacks on September 11th. The individuals at the 
State Department who were responsible for the security failures 
in Benghazi continue to operate in different capacities without 
any real consequences, and the terrorist perpetrators who were 
behind the Benghazi attack are still at large. What is being 
done to capture them?
    Prior to the September 11, 2012 attacks in Benghazi which 
left four brave Americans dead, it was already clear that the 
security situation in Libya had been far from secure. The 
administration should have been more aware of these threats and 
taken the proper steps to increase security measures to ensure 
the safety of our Embassy personnel. They did not. 
Unfortunately, it is clear that these steps were not taken. We 
also know that Libya was used as a staging ground for the 
January 16, 2013 hostage standoff in the gas plant attack in 
Algeria which resulted in the deaths of more than 80 people.
    As Secretary Clinton said when she testified in Congress in 
January, there is no doubt that the Algerian terrorists had 
weapons from Libya. There is no doubt that the remnants of AQIM 
in Mali had weapons from Libya. Yet, we seem to not learn from 
our mistakes as the administration seeks to inject even more 
arms into the region by arming the Syrian rebels. Our strategy 
in the region needs to be aimed at disrupting extremist 
networks and denying safe havens to these groups. However, in 
order to do that we must first get a real understanding of the 
nature of the problem and increase our attention to these 
threats because so far we have been woefully lacking in our 
understanding of these threats, and I think that it is evident 
in our lack of a coherent foreign policy to these issues.
    Thank you very much, Mr. Chairman, for this timely hearing.
    Mr. Poe. The Chair will now recognize the ranking member of 
the Middle East and North Africa Subcommittee, Mr. Deutch from 
Florida, for 5 minutes.
    Mr. Deutch. Thank you Chairman Poe and Chairman Ros-
Lehtinen for holding today's hearing. The purpose of today's 
hearing is to examine the threats to U.S. interests and 
security in North Africa from extremist groups because that is 
how we are going to prevent tragedies like Benghazi from 
occurring again.
    I hope that we will uphold the purpose of this hearing 
rather than furthering baseless political witch hunts. I hope 
as well that we can use today as an important opportunity to 
look at ways to better ensure our security and stability in the 
region. And I hope that today doesn't devolve into another 
opportunity to try to score political points by suggesting that 
there was some kind of massive government cover-up or that the 
administration chose to ignore threats leading up to Benghazi, 
when as we now know that is simply untrue.
    And it doesn't change the fact that four courageous 
Americans died in the attack on Benghazi. The attack on 
Benghazi was a tragedy, a tragedy perpetuated by terrorists 
that are fundamentally at odds with everything the United 
States and our allies stand for. So instead of continuing to 
lay false blame, I am hopeful that today we will be able to use 
this hearing to ensure that we are doing everything we can to 
protect our interests from extremist threats.
    The spread of extremism in North Africa is of increasing 
concern as groups like al-Qaeda in the Islamic Maghreb take 
advantage of political and economic instability and the free 
flow of weapons and cash. In post-revolutionary Libya, the 
democratically elected Libyan National Congress remains under 
constant threat of armed terrorist groups. For the young men in 
Libya who fought for freedom from Ghadafi's rule, watching a 
paralyzed government achieve very little really doesn't equate 
to tangible change in their daily lives. Ghadafi's vast weapons 
cache is making its way across the region, trickling down to 
terrorists in Mali and into the hands of extremist fighters in 
Syria.
    I am increasingly concerned that in Egypt's current tenuous 
political situation, extremists may look for a window of 
opportunity to broaden support and turn to violence there. AQIM 
has become quite adept at making a fortune off of kidnappings 
across North Africa. While AQIM has long been viewed as 
possessing little threat to the U.S. homeland, it has been 
emboldened by its increasing numbers and power in the lawless 
vacuum of post-rebellion states. We have far too many strategic 
interests in the region as we saw with the brazen attack on 
U.S. and other workers in an Algerian gas field earlier this 
year that left 23 dead. And my sincerest condolences to you and 
your family, Mr. Lovelady, on the loss of your brother. Thank 
you for being with us today and to share his story and your 
family's story.
    So how do we combat the growing presence of these extremist 
elements? We have got to continue to strengthen the state 
institutions of our allies in North Africa. The Libyan and 
Tunisian Governments are struggling to rebuild. Libya remains 
without a legitimate and functioning police force to stem the 
rogue militias operating throughout the country. Libya's oil 
production is starting to rebound but there is serious concern 
over the management of this oil revenue. Tunisia, an economy 
long dependent on tourism, is slowly beginning to attract 
foreign investment. A strong economy, and increasing education 
and job opportunities for youth makes the allure of fighting 
for AQIM less desirable.
    But the French intervention in Mali has sparked increasing 
violence toward Western targets. An al-Qaeda-affiliated group 
launched a suicide attack on a French uranium mine in Niger in 
May. And we have got to refocus efforts on border control. 
Libya's poorly patrolled southern border is a gateway for 
Islamic extremists into Mali and Niger and Chad. And without a 
strong national army or a security force, Libya is relying on 
various militias to patrol the border. Weapons flow freely from 
Sudan into Egypt and into the hands of Hamas and al-Qaeda 
affiliates in the Arabian Peninsula.
    I am heartened by the announcement in May that Libya, Sudan 
and Egypt agreed to work together to develop the border 
triangle and to establish free trade zones that would help 
improve the economic lives of those living in that area. A lack 
of basic infrastructure has stunted economic development in 
many areas of the Sahara. U.S. investment in roads and 
electrical grids will help shore up these underdeveloped areas.
    And with much of our attention focused on Syria, Egypt, and 
the threat of Hezbollah and Iran, we cannot allow North Africa 
to become a terrorist Wild West. Strong support from the U.S. 
and our allies for counterterrorism cooperation through 
programs like the Trans-Saharan Counterterrorism Partnership, 
is an interagency partnership that focuses on improving 
individual country and regional capabilities in the Sahel and 
Maghreb to defeat terrorist organizations. Focusing on that is 
a must. Active cooperation on border control and intelligence 
sharing can restrict the movement and diminish the presence of 
these terrorist groups.
    I appreciate the witnesses being here today and I look 
forward to continuing this discussion with all of you. Thank 
you Mr. Chairman. I yield back.
    Mr. Poe. Thank the gentleman from Florida. We will now 
recognize other members for 1 minute, who have an opening 
statement. Mr. Chabot from Ohio, you are recognized for 1 
minute.
    Mr. Chabot. Thank you Mr. Chairman. I think Libya is an 
example of what you get when the United States leads from 
behind. And there is a saying that ``nature abhors a vacuum,'' 
and that is what we had in Libya after this conflict took place 
and the United States was leading from behind in the conflict 
itself, but then especially after the war was over we now see 
jihadists exercising considerable power there. We have seen 
four brave Americans killed, and it is just a tragedy and we 
all express our sympathy to the Lovelady family. It is a 
horrible thing.
    Unfortunately, I think we saw the same thing in Iraq where 
we saw--you talk about seizing defeat from the jaws of victory, 
we basically had the country stabilized, a potential ally. 
There was always a plan to leave troops there. We have pulled 
troops out. The country is now coming apart at the seams and we 
are going to see that repeated in Afghanistan, I am afraid. I 
yield back.
    Mr. Poe. Thank the gentleman. The Chair will now recognize 
Mr. Schneider from Illinois for 1 minute.
    Mr. Schneider. Thank you Mr. Chair, and I want to thank the 
witnesses for joining us today, and to the Lovelady family, 
please accept my sincerest condolences as well.
    Following the end of the Ghadafi regime in Libya we have 
observed a weak central government which has been relatively 
unable to police vast swaths of territory within the country. 
This has resulted in a proliferation of militant groups carving 
out areas of influence and protection, a situation which does 
not generally contribute positively to the goals of the central 
government. Personally, I am extremely concerned with the rise 
of groups such as Ansar al-Sharia and their growing influence 
across the Islamic Maghreb. I am also concerned that portions 
of Libya may be used as training grounds for foreign fighters 
and a conduit for transporting weapons and equipment for 
terrorist organizations not only in North Africa but also 
throughout the Middle East.
    Mr. Zelin, you mentioned in your prepared remarks that one 
of the worst kept secrets locally, but only reported on within 
the past month, is the large amount of weapons that Libyans 
have sent to Syria via Benghazi and Misrata through Lebanon and 
Turkey. I look forward to hearing your thoughts and the 
thoughts of the panel on how we can address these potential 
regional destabilizing efforts by groups affiliated with al-
Qaeda. Thank you, and I yield back my time.
    Mr. Poe. Thank the gentleman. The Chair will now recognize 
Mr. Yoho from Florida for 1 minute.
    Mr. Yoho. I thank the chairs and ranking members for 
holding this hearing today. The fact that we still have not 
brought to justice those who attacked us is a travesty. 
Terrorists have spilled American blood and we must do 
everything we can to bring the perpetrators to justice. As 
famously said, ``Justice delayed is justice denied.'' And I 
give my regards to Mr. Lovelady and your family on the loss of 
your brother and son, and all others who have lost loved ones 
in a cowardly attack against the United States and its 
citizens. And I look forward to the testimony of our witnesses 
today, and I thank you for being here. I yield back.
    Mr. Poe. Does any other member wish to make an opening 
statement? I will now proceed with the introduction of our four 
witnesses and then they will testify. A brief introduction of 
each.
    Mr. Gartenstein-Ross is a senior fellow at the Foundation 
for Defense of Democracies. He studies challenges posed by 
violent, non-state actors. He is the author or volume editor of 
12 books including ``Bin Laden's Legacy'' and is published 
widely in the popular and academic press.
    Mr. Aaron Zelin is the Richard Borow fellow at the 
Washington Institute for Near East Policy. His research focuses 
on how jihadist groups are adjusting to the new political 
environment of the Arab uprisings and politics in countries 
transitioning into democracy. Mr. Zelin also maintains a Web 
site, jihadology.net, which is an archive for jihadi primary 
source materials.
    Dr. Daniel Byman is a professor in the Security Studies 
Program at Georgetown University's School of Foreign Service 
and a research director at the Saban Center for Middle East 
Policy at the Brookings Institution. Dr. Byman has served as a 
professional staff member with both the 9/11 Commission and the 
joint 9/11 inquiry staff of the House and Senate Intelligence 
Committees. He has worked as a research director of the Center 
for Middle East Public Policy in the RAND Corporation as an 
analyst of the Middle East for the United States intelligence 
community.
    Mike Lovelady, born in Port Arthur, Texas, that is 
southeast Texas, was a firefighter for the City of Nederland 
for over 30 years. He has been married for 35 years to his wife 
Wanda and has three children, Kevin, Jason and Ashley. His 
brother Victor Lovelady--and Victor's widow and wife, Maureen, 
is here today--Victor Lovelady was killed by terrorists who 
attacked the gas plant where he was working in Algeria in 
January of this year.
    I want to thank all four of the witnesses for being here. 
The Chair would recognize each of you for 5 minutes. Keep your 
testimony to 5 minutes or you may get gaveled. And you will 
find out what that means if you don't figure it out. So after 
each witness testifies then the people on both subcommittees 
will ask questions. First, we will hear from Mr. Gartenstein-
Ross for 5 minutes.

STATEMENT OF MR. DAVEED GARTENSTEIN-ROSS, DIRECTOR, CENTER FOR 
 THE STUDY OF TERRORIST RADICALIZATION, FOUNDATION FOR DEFENSE 
                         OF DEMOCRACIES

    Mr. Gartenstein-Ross. Chairman Poe and Ros-Lehtinen, 
Ranking Members Sherman and Deutch, distinguished members of 
the subcommittees, it is an honor to appear before you today to 
discuss the threat of jihadist terrorism in North Africa.
    In my view, the most important facet of understanding the 
regional threat is how the Arab uprisings have fundamentally 
changed the shape of jihadism. Al-Qaeda and other like-minded 
militants possess a defined regional strategy that began to 
take shape even as Hosni Mubarak's regime was drawing its very 
last breaths. The rough consensus that jihadist strategists 
reached about developments produced some simple principles for 
action on their part.
    These strategists agreed that the political upheaval helped 
their movement in several ways. One of the most significant was 
that they foresaw unprecedented opportunities to undertake 
dawa, or missionary work, to propagate their particularized 
version of the Islamic faith. The new and democratically 
elected regimes would be less likely to suppress jihadist 
groups' dawa efforts so long as they didn't explicitly engage 
in violence against the state. And indeed, in this new 
environment groups like Ansar al Sharia Tunisia have been quite 
effective at expanding both their numbers and influence.
    That being said, the jihadist movement, as we all know, has 
never been satisfied with constraining itself to nonviolent 
advocacy. Some of their post-uprisings' militant activity in 
countries like Tunisia and Egypt has taken the form of 
vigilante violence aimed at such perceived foes of the movement 
as artists, civil society activists, educators, and also 
religious minorities. But another aspect of their work has 
involved jihad, which these groups understand as warfare 
against other competitors for power.
    There is currently a mutually reinforcing interaction 
between countries in the region in which jihadists are 
primarily engaged in dawa, countries like Tunisia and Egypt, 
and those where a weak or disintegrating state makes violence 
more feasible, in places like Libya or Mali. The fact that 
jihadist groups currently engaged in dawa efforts have not 
given up on using violence to eventually seize power, makes a 
regional approach important to them. Having steep variations in 
how these groups relate to violence allows groups like Ansar 
al-Sharia Tunisia or Egypt's Salafi jihadist groups to 
propagate their ideology, but at the same time to refrain from 
the kind of large scale involvement in either violence or 
preparations for violence that could trigger a state crackdown. 
At the same time, these groups can also take advantage of 
regional developments to quietly arm themselves and also 
undertake militant training.
    So I would like to note how Libya in particular fits into 
the broader regional picture, and the fact that Libya's central 
government is incredibly weak and the country increasingly 
chaotic at this point cannot be denied by any reasonable 
observer. Militant groups have taken advantage of this 
environment. One way is training, with camps operating in 
southern Libya. The impact of these camps can be seen, for 
example, in the tragic January attack at the In Amenas gas 
complex in Algeria. Some of the attackers reportedly trained in 
Libya before undertaking that attack. In addition, they also 
used Libyan soil as a staging ground before undertaking that 
attack. Al-Qaeda and Emir Ayman Al-Zawahiri has also 
established connections to militant camps in Libya, which, for 
example, include training for suicide missions.
    A second issue is the flow of arms to neighboring 
countries, as Chairman Ros-Lehtinen pointed to. Libyan arms 
have played a role in the Malian conflict, they played a role 
in the In Amenas attack in Algeria, and they have also been 
moved across Algeria into Tunisia where they have helped 
strengthen Ansar al-Sharia Tunisia. Right now we are also 
focused on Egypt, and Libyan arms have poured into Egypt's 
North Sinai which has seen over the past few days an escalation 
in attacks on security forces following the ouster of Mohamed 
Morsi.
    A third issue is how Libya can serve as a safe haven. 
Following the French intervention in Mali, fighters from Ansar 
al-Din and al-Qaeda in the Islamic Maghreb made their way into 
southwest Libya where they blended with local militant groups. 
This is also an important part of the jihadist regional 
strategy. Rather than standing and fighting, the militants who 
are occupying North Mali melted away. Such a tactic helps to 
keep the movement's capabilities alive and prevent significant 
attrition.
    Overall, the relationship between countries where dawa is 
the predominant strategy and countries where violence is 
dominant is vital to understanding the threat on a regional 
scale. The region should be understood as a whole, and 
countries where violence is more feasible can also make 
violence more likely in places where dawa is predominant. A 
very dangerous game is currently being played in Egypt, and if 
that situation escalates look for Libya to be an increasingly 
important part of that dynamic.
    The jihadist regional strategy overall is coherent. The 
U.S. doesn't have to be at the forefront of a response. Over 
the past few years we have seen partner nations take the lead 
against militant groups and it is sensible for the U.S. to 
minimize its expenditure when feasible and wise. But we should 
understand that jihadist strategy is designed for the long 
term, rather than tricking ourselves into thinking that these 
groups will inevitably moderate. Thank you.
    [The prepared statement of Mr. Gartenstein-Ross follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank the gentleman.
    Five minutes from Mr. Zelin. Thank you, sir.

    STATEMENT OF MR. AARON ZELIN, RICHARD BOROW FELLOW, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Zelin. Thank you, Mr. Chairman, and Mrs. Chairman, and 
members of the two subcommittees for giving me the opportunity 
to testify today on the threat emanating from Libya. I will be 
summarizing my written testimony.
    Currently one can identify three interrelated but unique 
threats within Libya. One that is local with Ansar al-Sharia in 
Libya, one that is regional with Libyans going to fight in 
Syria, and the third is transnational related to al-Qaeda in 
the Islamic Maghreb. I will be focusing on the first two since 
my colleague Daveed just spoke about AQIM. Before discussing 
this it is important to note that Libya has all types of 
violence and most is actually not related to jihadi 
organizations or those sympathetic to them. A large portion of 
it is militia based, a legacy of the revolution against the 
Ghadafi regime and related to local economic or political 
grievances. This should be kept in mind when contextualizing 
jihadi violence within the broader picture of Libya.
    Ansar al-Sharia in Libya is an organization that was 
established in February 2012, and has steadily grown over time 
over the last 1\1/2\ years. We have been able to see this based 
off of the two annual conferences they held. At the first one 
in June 2012, there were less than 1,000 individuals that were 
present, but at the one that occurred 2 weeks ago there were 
more than 2,000 individuals.
    So what explains this? Dawa, as Daveed mentioned, 
missionary work, has been at the forefront of their activities 
within Benghazi--cleaning streets, holding lectures, opening up 
medical clinics. But their most successful actions have been 
their anti-drug campaign within Benghazi, and it has actually 
gotten local buy-in from the psych ward in Benghazi, the local 
soccer club, the telecommunications company, as well as other 
actors there, and it has also allowed them to expand their 
operations outside of Benghazi for the first time with one 
event and lecture in Tripoli and the capital.
    This also highlights a false narrative that was heard in 
the media following the attack last year that they were 
essentially kicked out of the city. This is not true. They were 
just kicked out of the base that they were in, but the members 
of the organization stayed within Benghazi, and within a few 
days after the attack you actually heard from doctors and 
nurses at the hospital that they had been guarding that they 
wanted them back there to help out. In addition, we also see a 
growth in terms of their connections with some tribesmen in the 
southern city of Ubari, as well as the fact that they opened up 
a second branch of the organization just 1 week ago in the city 
of Sirte.
    On a regional level we see Libyans going over in droves to 
Syria right now to fight against the Assad regime, and Libyan 
nationals are actually the largest number of foreign nationals 
fighting in Syria against the regime as well as the largest 
number of foreign nationals who have died. And the worry is, 
what happens when they go home? Is it going to be a repeat of 
what we saw in the 1980s in the anti-Soviet jihad in 
Afghanistan when you saw Libyans going home and then going to 
fight against the government there?
    The difference now though is, unlike in the 1990s, the 
central government is very weak. We could see this with the 
different militia groups being able to blackmail the central 
government in terms of legislation, in terms of individuals in 
different ministries. Additionally, even though there have been 
attempts to integrate militias into the police force and 
military, because of the way Ghadafi ruled, we saw there are 
potential issues because of regionalism and localism there. So 
let us say you have somebody from Zintan trying to do police 
work in Dharna. There might be potential issues there because 
of this sort of localized xenophobia in some respects.
    So what can the United States and its allies do? I think 
one of the things is we can't just be holed up in Embassies and 
staying in the capital. We need to have individuals go out to 
the cities, get in touch with the local businessmen, the local 
civil society actors, as well as even the local militiamen to 
better understand the mosaic in these local communities. 
Another area where the United States can help out is promoting 
entrepreneurship. This is what America does best and it is also 
a way to combat against the community organizing that groups 
like Ansar al-Sharia in Libya do, since we should be using 
globalization to our advantage just as they do.
    A third aspect is that we should continue our robust 
intelligence gathering with our local and regional allies as 
well as our allies in Western Europe who are a lot closer to 
this. And finally, I think one of the things that should be on 
the table as long as it is okay with the Libyan Government is 
that we should think about potentially using drones in southern 
Libya on the training camps of al-Qaeda in the Islamic Maghreb. 
This of course could be controversial just because of the 
debate on drones, but I think it is important. But I would 
advise against using it in the northeast and west of the 
country where there are larger population centers. But using it 
in the south could be legitimate since it is sparsely 
populated, so collateral damage could potentially be low, and 
the fact that that is where AQIM is hosting its training camps. 
Thank you very much.
    [The prepared statement of Mr. Zelin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Dr. Byman, I recognize you for 5 minutes.

   STATEMENT OF DANIEL L. BYMAN, PH.D., PROFESSOR, SECURITY 
             STUDIES PROGRAM, GEORGETOWN UNIVERSITY

    Mr. Byman. Chairman Poe, Chairman Ros-Lehtinen and Ranking 
Members Sherman and Deutch, distinguished members of the 
subcommittees, thank you for this opportunity to testify today. 
I am humbled to be here on the panel with Michael Lovelady. 
Please know that my thoughts go out to him, his family, and the 
other relatives of those Americans who have died in Algeria and 
from other terrorist attacks.
    There is a bit of good news, which is that the al-Qaeda 
core is weaker, in part, due to the American drone campaign. 
But the bad news is that affiliate groups like al-Qaeda in the 
Islamic Maghreb or groups or individuals that have no formal 
relationship with al-Qaeda but share many of its goals are 
filling the void. They are taking advantage of greater state 
weakness in the Middle East which is likely to increase in the 
years to come.
    We have seen terrorism spread to new areas since the Arab 
Spring, and several African countries have also become more 
dangerous. In recent weeks, Egypt has become markedly less 
stable so similar plots in chaotic areas are likely to be in 
our future. The only strong regime in the North Africa region 
is Algeria, and the United States has at best a lukewarm 
relationship with the Algerian Government.
    Algerians are at the core of AQIM, and the Algerian 
Government runs the most extensive spying network in the 
region. So we must look to Algeria to get at both the problem 
and the solution. However, the Algerian Government has a 
history of manipulating opposition groups including violent 
terrorist groups, making it difficult to trust the information 
it provides. I believe that the U.S. reaction to the Benghazi 
attack may leave us less prepared for terrorism in the future.
    During my time as a staff member of the 9/11 Commission and 
for the House and Senate joint committee investigating 9/11, we 
consistently pushed for a CIA and a State Department that were 
more expeditionary and willing to take risks. In short, we 
wanted more people with the courage, experience, skill and 
mindset of Ambassador Stevens. His loss was a great tragedy for 
our country. Unfortunately, the political and bureaucratic 
lesson of Benghazi is clear. Avoid taking risks at all costs.
    American diplomats will be more confined to well-guarded 
parts of capital cities and more removed from local 
populations. This will keep them safer, but U.S. intelligence 
is likely to decline and U.S. statecraft to diminish. Better 
intelligence and good relations are important for keeping 
Americans safe in different parts of the world and in the U.S. 
homeland. It is impossible to quantify the benefits derived, 
but better intelligence allows numerous plots to be disrupted 
and better relations reduce hostility to the United States and 
improve cooperation when trying to disrupt attacks or manage 
their consequences. Trying to improve intelligence and 
relations, however, will put those Americans charged with 
gathering intelligence and those State Department officials 
charged with improving relations at more risk.
    The United States should bolster not draw down its presence 
in North Africa. America has important interests in the region, 
and in any case the threats will not disappear simply because 
the United States chooses to ignore them. Jihadists may point 
to any U.S. retreat after Benghazi as proof of U.S. cowardice. 
The region is now a growing arena for jihadists and the size of 
their area is growing. In addition, jihadists from the region 
as well as weapons from Libya are showing up in places like 
Syria and Sinai, and here I commend a recent report authored by 
my colleague here, Mr. Zelin.
    In short, the region's problems are no longer regional. We 
should seek to understand and engage regional governments to 
counter the threats that emanate from North Africa. To this end 
we need a robust intelligence and diplomatic presence even in 
dangerous countries or ones that suffer from governments that 
reject democratic practices. Because the operating environment 
is risky, the United States should augment and systematize its 
rapid response capabilities and post-attack procedures. The 
United States must also work more with allies like France to 
prepare for contingencies. In addition, U.S. bureaucracies 
should adopt a more regional response to the terrorism threat. 
Unfortunately, U.S. bureaucracies still face difficulty working 
in a regional way.
    Finally, it is particularly important to hedge as we expand 
ties to undemocratic regimes. This involves expanding the range 
of American contacts across government and society and trying 
to find alternative solutions to dependence on troubling 
countries like Algeria. Such hedging allows the United States 
to protect its interests yet make clear to regime figures that 
the United States is not completely dependent on them. This 
both makes U.S. pressure more credible and leaves the United 
States in a better position to deal with the aftermath of 
revolution. Thank you again for this opportunity to present my 
views.
    [The prepared statement of Mr. Byman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Mr. Lovelady for 5 minutes.

 STATEMENT OF MR. MIKE LOVELADY, BROTHER OF ALGERIAN GAS PLANT 
            TERRORIST ATTACK VICTIM, VICTOR LOVELADY

    Mr. Lovelady. Good morning.
    Thank you, Mr. Poe, for the opportunity, and the rest of 
the committee members, to come testify on behalf of my brother. 
I have just got a story I put together on how this went down, 
and I think it would be very, very helpful for you to 
understand the hurt that my family feels.
    On the morning of January 16, 2013, at approximately 3:30 
a.m., my home phone rang. As usual, a call at this time in the 
morning does not bring good news. When my wife answered the 
phone, a strange voice asked, who is speaking? When my wife 
refused to give her name she heard Victor state, ``Wanda, I am 
in trouble. I need Mike.''
    When I answered the phone Victor stated, ``I am in trouble. 
I have been captured by al-Qaeda and we are tied up.'' Then 
Victor asked me to tell his wife Maureen about his situation in 
person, because he did not want her to be alone when she got 
the news about him. Victor then said, ``You will know what to 
do.'' I told him that I would notify his wife, contact the FBI 
and the U.S. State Department. I attempted to ask questions 
about his situation, but he stated that the captors were next 
to him and he could not answer any questions. Then we told each 
other bye. That was the last I have ever heard from my brother. 
Victor was only 57 years old and my only sibling.
    Victor and I grew up in Nederland, Texas, with wonderful 
parents that raised us with traditional and solid values that 
would help us throughout our lives. We were the type of family 
that did everything together such as going to the beach or the 
lake. As we grew up and went in different career paths we did 
not get to see each other as much as I would have liked. 
However, we still talked on the phone a lot. I always 
considered Victor the genius of the family. I admired his 
ingenuity and I was in awe of his knowledge about electricity 
and electronics.
    Victor had two degrees from Lamar University in Beaumont, 
Texas. His Bachelor of Science was in Industrial Engineering 
and his Associates Degree was in Electricity and Electronics. 
Victor was a great brother, husband and father. Victor, married 
to his wife Maureen for 33 years, he had two children he loved 
so much. Erin, 28, and Grant, 21 years old.
    At this time I would like to introduce Victor's wife 
Maureen, his son Grant, and my family. Wanda is my wife, and my 
children, Kevin, Jason and Ashley. His daughter Erin would have 
liked to have been here today. She had to have emergency back 
surgery over this past Saturday.
    Victor had a heart of gold and would do anything for 
anyone, especially the elderly. He was a kind and gentle man. 
Victor was an industrial engineer by trade and designed system 
buildings to control industry operations. He was also a master 
electrician and could almost do anything. Most of Victor's life 
was spent in Nederland, only recently moving to Houston after 
his children graduated from Nederland High School.
    When work in our area slowed down, Victor traveled back and 
forth to Houston, 170-mile round trip, for about 3 years so his 
children could graduate from Nederland High School. His son 
Grant was a star football player and his daughter Erin was 
assistant softball coach at Nederland High School. Victor never 
had a pension plan and always had to pay his family's insurance 
with no input from the company he worked for. He never had more 
than 2 weeks off in a year. However, he longed to be able to 
retire and spend more time with his wife and children while he 
was still a relatively young man.
    When the opportunity came up for Victor to go to work 
overseas, Victor weighed the pros and the cons. He was told 
that he could only work overseas until he was 60 years old. He 
knew that if he could do this job for 3 years he would be able 
to make enough money to retire and be with his family. He was 
assured that it was a safe place to work. He told his family 
and me that he would be safe. He said the plant was in the 
middle of the desert and no one would go there.
    After speaking with my brother, I called the State 
Department's Washington number to see if they could provide me 
with more information about his situation. After explaining it 
to them that I just received a call from Victor, they said they 
would look into the matter and call me back. The State 
Department called me back later that morning to confirm that 
there was an attack on the plant. I continued to receive 
regular calls from both the State Department and the FBI after 
that. They kept us well informed of Victor's situation on a 
daily basis and were very respectful. In addition to that we 
were visited by agents from New York, Beaumont, and the New 
York City offices.
    On January the 19th, the FBI came to a family member's 
house where we had gathered and told us that Victor had died on 
January 17th. On January 21st at 3 o'clock a.m., the State 
Department and the FBI called again asking if there was any 
identifying marks that could be used to identify Victor. I told 
them that Victor had a tattoo of a lightning bolt on his upper 
left arm. A half hour later they called me back and confirmed 
that they had positively identified his body.
    About 2 months later, in March, we got more details of 
Victor's death. The FBI's Special Agent Jessica Ulmer informed 
us that Victor was killed as the hostages were being moved from 
one side of the compound to the other and the Algerian forces 
had launched a raid. I don't know if the Algerian forces took 
out the cars or the terrorists blew up the vehicles, but 
Victor's cause of death was listed as blast injuries. Agent 
Ulmer has kept in contact with me over the last few months 
regarding Victor's personal effects that we hope to recover. 
Jessica is a compassionate agent that works hard to complete a 
task such as this investigation, and truly understands the 
feeling of our family regarding our loss.
    I personally want to thank Congressman Ted Poe and his 
staff for their care and diligence on having Victor's personal 
effects returned from Algeria. Congressman Poe never forgot our 
family and continues to seek justice for the people that lost 
their lives on that fateful day. Congressman Poe is a true 
patriot and he makes me proud to be from Texas. I also want to 
thank Congressman Randy Weber for making sure our every need 
was met throughout this entire ordeal.
    Finally, on behalf of the Lovelady, Buttaccio and Rowan 
families, I want to thank Congressman Poe, Congressman Weber, 
and all the House Committee on Foreign Affairs members for 
continuing to fight terrorism and keeping Americans safe and at 
home. Thank you for your time.
    [The prepared statement of Mr. Lovelady follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Poe. Thank you Mr. Lovelady.
    And once again on behalf of both of the committees that are 
here, I want to extend our sympathy to you, Maureen, and the 
families of Victor.
    I will now recognize myself for 5 minutes for questions and 
then we will proceed through each committee member. I am going 
to ask, start with the basics regarding both Benghazi and the 
attack in Algeria. Did we know before the attack in Benghazi, 
did we know before the attack in Algeria that it was going to 
occur? After the attacks are over with, do we know who 
committed the attack in Benghazi and Algeria? If we do know, 
where are those people that committed those attacks?
    So those are three questions, and I will throw that out to 
all of the committee members. Mr. Byman, do you want to start 
first?
    Mr. Byman. Thank you Mr. Chairman. I should stress that my 
knowledge of this comes from unclassified sources and I am sure 
that much of value is in the classified realm. My 
understanding, certainly, of the Benghazi attack was that it 
was widely known that it was a very dangerous threat 
environment before the attack. In terms of the specifics of the 
plot, to my knowledge, that was not anticipated by the U.S. 
Government from almost everything I have seen including the 
reported actions of Ambassador Stevens.
    In Algeria, I believe it slightly differently. Algeria, 
including the energy sector, had historically been a relatively 
safe area. Now we need some real caveats when we say that 
because Algeria itself has had huge terrorism problems 
especially in the 1990s. Another thing to remark on is 
Algeria's role, albeit limited, in supporting the French effort 
in Mali.
    Mr. Poe. Excuse me, Dr. Byman. Can you cut to the chase? 
Did we know about the attack in Algeria before it occurred? I 
am talking about the United States. And the second question is, 
do we know who committed it, and if so, have those people been 
apprehended? That is the three questions regarding both places, 
since the time is limited.
    Mr. Byman. I would say, in Algeria, sir, that we knew there 
was a dangerous threat environment but again did not anticipate 
the attack. Afterwards we know some of the individuals 
involved, to my knowledge, but I don't believe we know all of 
them. There is still some uncertainty. And to my knowledge they 
have not been apprehended.
    Mr. Poe. Mr. Zelin, do you want to weigh in on those three 
questions?
    Mr. Zelin. Sure. In both cases I am unsure that the U.S. 
Government was aware that they were going to occur at that 
specific time. In terms of who did what in Benghazi, there was 
a statement put out by Ansar al-Sharia in Libya within about 12 
hours of the attack saying that they themselves did not order 
anything, but the way it was worded suggested that members of 
the group were involved. So it could have been some type of 
freelancing.
    And then in terms of the In Amenas attack, Mokhtar 
Belmokhtar's group claimed responsibility for it and it is 
believed that some of the members in his group with him were a 
part of it. And currently it is believed that Mokhtar 
Belmokhtar is either in northern Niger or in southern Libya, 
but this is unsure, and then the members of Ansar al-Sharia are 
still in Benghazi.
    Mr. Poe. So has anybody in either attack been apprehended, 
to your knowledge?
    Mr. Zelin. I am not aware of that. And in the case of 
Mokhtar Belmokhtar we have seen that he has conducted other 
operations in northern Niger a couple of months ago, or maybe a 
month ago.
    Mr. Poe. Mr. Gartenstein?
    Mr. Gartenstein-Ross. So as to preserve your time, Mr. 
Chairman, I don't have anything to add to my colleagues. I 
agree with them.
    Mr. Poe. You made a comment, Dr. Byman, that kind of 
irritated me in that you said that the terrorists in North 
Africa look at the United States' policies since both of these 
actions, Algeria, and then first, Benghazi, as a retreat from 
the area, and that the United States, if I got your comments 
correctly, has cowardice regarding this issue. So that 
irritates me. Do you want to explain that word ``cowardice'' 
and what you mean by that?
    Mr. Byman. Mr. Chairman, I apologize for irritating you.
    Mr. Poe. Oh, it is okay. It is not the first time.
    Mr. Byman. It is the first time I have done it, I hope. 
Sir, in the past, Bin Laden would point specifically to the 
bombing of the Marine barracks in Lebanon and also to Somalia 
as proof that if you hit the United States hard it will leave a 
country. In Benghazi in particular, my fear is that if what 
happened in Benghazi leads to a drawdown of the broader U.S. 
diplomatic and intelligence presence in North Africa, that 5 
years from now, 10 years from now we will be hearing Benghazi 
added to this list. And it is a way of encouraging his 
followers, sir, that he says that. Hit the United States and 
they run. I hope that is not so, sir.
    Mr. Poe. My last question to all of you, do any of you know 
whether it is true or not that regarding Algeria, the United 
States had forces in the general area before the attack and 
right after the attack?
    Mr. Gartenstein-Ross. I have no knowledge of that sir.
    Mr. Poe. Mr. Zelin?
    Mr. Zelin. Neither do I.
    Mr. Poe. Dr. Byman?
    Mr. Byman. Nor I, sir.
    Mr. Poe. And lastly, Mr. Lovelady, do you have any other 
thing that your brother told you that you haven't already told 
us, before he was killed in the plant in Algeria?
    Mr. Lovelady. No, sir, I don't. I just, pretty much I spoke 
with him very little, and the information I have got was from 
the FBI on how he died and what was happening when he died.
    Mr. Poe. And he told you he was already captured by what 
group or what----
    Mr. Lovelady. He told me he was captured by al-Qaeda.
    Mr. Poe. All right. Thank you very much. Five minutes for 
the ranking member. Mr. Sherman?
    Mr. Sherman. Mr. Lovelady, thank you for your testimony, 
and I would like to thank your entire family for being here to 
put a human face on what we are talking about. There are those 
who blame America any time anything bad happens anywhere in the 
world. That we are the world hegemon and that therefore 
anything bad that happens is a sign of American weakness or 
American error.
    The fact of the matter is, with some crises we need to 
watch and not get involved, with some we need to influence and 
put only some of our prestige, money, and in some cases, 
troops, on the line. And only in a very few cases do we need to 
actually be sure to control the outcome and assume ownership of 
the crisis and make a full commitment. We should not retreat 
from all involvement in the world, nor should we try to take 
responsibility for the outcome of any crisis. The phrase ``lead 
from behind'' has been disparaged and as a turn of phrase it 
deserves to be disparaged, but as a concept, that is to say, be 
involved but not necessarily take the leadership role, it has 
to play a role in American foreign policy.
    In Niger we helped France but France took the lead. Would 
we have had it any other way? Is there anyone in this room that 
wants American troops in Niger? And in Libya it was a 
combination of the United States, NATO and the rebels on the 
ground that overthrew Ghadafi. We did not put our troops on the 
ground or try to control the outcome. We got an outcome that 
was far from perfect. Would we have preferred to see American 
troops dominate Libya? There is also the Pottery Barn rule put 
forward by Colin Powell that says if we do get involved we have 
to take ownership and we are responsible for rebuilding. I will 
point out that history proves that wrong.
    In World War I we played a critical role in breaking the 
German, Austro-Hungarian, and Ottoman empires. No one in 
America dreamed that we had the responsibility to rebuild or 
that we owned that which had been broken. And while some of our 
more imperialist friends who were with us in World War I took 
advantage of opportunities, no one asserted that they had the 
obligation to rebuild every society that was destroyed. We have 
a right to defend ourselves without assuming the obligation to 
make sure that every country that harbors terrorists ends up as 
prosperous and as democratic as our World War II adversaries. 
And we have to be humble enough to realize that sometimes we 
will influence but not control.
    Now I would like to turn our attention to Morocco, which is 
one area we haven't focused on yet. I am concerned that the 
AQIM, the al-Qaeda and Islamic Maghreb, has reportedly 
established ties with the Polisario militants in Algeria. 
Algeria provides material support and land for the Polisario, 
and some of the members seem to have been involved in the 
terrorist operations in northern Mali. I don't know which of 
our experts to ask, but what are the links between AQIM and the 
Polisario? What are we doing to disrupt those links, and what 
should we be doing to help allies like Morocco deal with AQIM-
aided organizations?
    Mr. Zelin. Based off of what I know in the open source 
reporting, it appears that there is a lot of rumors related to 
potential connections but there is no hard evidence as of now, 
at least based off the open source reporting. And in terms of 
any connections at all, I would assume that our allies in 
Morocco would help out in arresting individuals as the 
Moroccans have in other cases where there have been different 
terrorist cells within Morocco that we have seen over the past 
10 years.
    Mr. Sherman. Well, the Polisario is being sheltered by 
Algeria. What should we do there?
    Mr. Zelin. I don't really focus on Algeria that much in 
terms of my research, so I don't know the nature of what the 
United States' relation is there, but I assume that the United 
States can speak with Algeria. But we also have to understand 
in this context that there is a rivalry between Morocco and 
Algeria and we can't necessarily influence it that much.
    Mr. Sherman. I am going to try to sneak in one more 
question. Is Libya--we turned over tens of billions of dollars 
of Ghadafi's reserves to the Libyan Government. Is that money 
being used to establish security on the ground, is it being 
hoarded, or is it being stolen? Anybody have a one-word answer?
    Mr. Byman. I would say primarily hoarded and stolen, but a 
portion of it is being used to try to develop some governance, 
but not enough, sir.
    Mr. Sherman. I yield back.
    Mr. Poe. Thank the gentleman. Chair recognizes the chairman 
of the Middle East and North Africa Subcommittee, Ms. Ros-
Lehtinen from Florida. Five minutes.
    Ms. Ros-Lehtinen. Thank you Judge Poe. The threat of 
radical Islamists as we all know is not a new phenomenon, and 
we know that the problem is not just localized in one country. 
It is spread across an entire region. Radical Islamic militants 
are opportunists. They seek out areas of weak governance to 
establish bases of operation, and from there they go out and 
wage war against anyone who doesn't comport to their 
interpretation of Islam.
    And since the Arab Spring we have seen this opportunistic 
wave of Islamic militants move across the region from Libya to 
Tunisia to Algeria to Mali and beyond. And now we are seeing 
thousands of radical Islamists and al-Qaeda-linked terrorists 
flocking to Syria to join the fight there. If and when Assad 
falls and the Islamists manage to control Syria, what further 
implications would that have for the rest of the region, and 
what can the U.S. do to prevent an even further spread of this 
Islamist wave?
    And when looking at the administration's policy when it 
comes to this region, it is difficult to define any clear or 
decisive agenda. In order to tackle this problem it is 
imperative that we support our African partners' efforts to 
disrupt the operations of terrorist networks, deny safe havens 
to extremist groups, prevent an escalation of emerging threats 
through greater mutual cooperation and constant vigilance.
    So Dr. Byman, I would like to ask you, in your testimony 
you state that North Africa and the Sahel tend to be separate 
bureaucratically even though many of their problems are linked. 
How effective can programs like the Trans-Saharan 
Counterterrorism Partnership be in bolstering our partners in 
the region and fighting these threats, if funded and run 
properly, and what governments, whether it is local or 
national, can the United States work with in this region? Where 
have we seen any host nation buy in on these issues?
    And Mr. Zelin, yesterday the British Defense Ministry 
announced that it would train up to 2,000 Libyan troops which 
is part of a broader package of defense and security assistance 
developed with the U.S., with France, and Italy. In your 
testimony you state that the U.S. should work with regional and 
Western European allies. Will this help stabilize the 
deteriorating situation in Libya? Should the U.S. do more to 
help the Libyan Government?
    Dr. Byman?
    Mr. Byman. The regional versus state-focused issue is a 
very difficult one for any bureaucracy. Almost any approach you 
take is going to have problems one way or another. But when you 
do something cross-regional, having state-focused bureaucracies 
makes it far more difficult. Each Ambassador is going to have 
his or her own little fiefdom that is operated in a different 
way. You are going to have analysts not talk to one another. 
You are going to have programs that are implemented in 
different ways. And unfortunately, at times, the bad guys are 
more regional than we are.
    Mr. Zelin. I think that the steps that the U.K. is taking 
with training Libyan troops is a great idea. I think it should 
be done in addition to whatever else the United States is doing 
and our allies in Western Europe. But as I mentioned, I think 
we have to be careful also about the regionalism that we do see 
in Libya and the potential strife that could happen if you have 
individuals from different parts of the country trying to 
secure other parts. So that is something to think about as 
well.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Gartenstein-Ross?
    Mr. Gartenstein-Ross. I will speak to the initial point 
that you made about Syria. I think that at the end of the day 
jihadists will not control Syria, but they will control enough 
territory and have enough influence that it is going to create 
a lot of problems within the region. I would specifically look 
at the interplay between Syria and the developing situation in 
both Egypt and also Iraq. In terms of what we can do, I think 
there are three things that we can do right now. One is I do 
support engagement with Syrian factions in order to both map 
the factions and also to gain influence with whomever ends up 
being the eventual winner.
    But I think it is extremely important, and you already 
pointed to the dangers of arming Syrian factions, there has 
been some talk of sending them anti-tank weapons or anti-
aircraft weaponry. I think especially given that groups like 
Jabhat al-Nusra, which are linked to al-Qaeda, have not been 
shunned by other Syrian factions and also that we can't control 
the flow of this weaponry, we absolutely should not undertake 
it in that it will be used against the United States or else 
our allies.
    Ms. Ros-Lehtinen. Thank you very much. Thank you Mr. Poe. 
And our deepest condolences to the entire Lovelady family. 
Thank you.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
the ranking member of the Middle East and Africa Subcommittee, 
Mr. Deutch.
    Mr. Deutch. Thank you Mr. Chairman. I have some questions 
for the panel, but first, Mr. Lovelady, there are a lot of 
discussions that take place here that are, suffice it to say, 
dry, sometimes uninteresting to people who happen to pay 
attention to what we do. There are not enough opportunities for 
the members of this committee, and I would suggest not enough 
opportunities, I think, unfortunately too often for the 
American people to be reminded of why what we do here really 
matters so much. And your being here today with your wife Wanda 
and your kids, and Maureen, your being here with Grant really 
does remind us of that.
    When your brother was killed in the middle, as you put it, 
in the middle of the desert in Algeria, this matters to us and 
this matters to this country. And the battle that we have 
against terror and our fight against terrorists in what for 
many is seen as some remote part of the world, is all the more 
important when we are reminded of the impact that this has on 
peoples' lives here in this country. So we do offer our 
condolences, but I also want to offer our profound thanks.
    It is not, I am quite certain, it is not something that you 
ever thought that you would do to come to testify at the United 
States House of Representatives. It means a lot to us. I 
appreciate you being here. And to your family and Maureen and 
Grant, thank you very much for being here. I know that we have 
taken something significant from your presence here, and if you 
would pass our condolences to Erin, I hope her surgery went 
well also.
    Now Dr. Byman, if you could speak to your assessment of al-
Qaeda in the Maghreb and specifically chain of command issues, 
cooperation, how structured is it, or are we just talking about 
hundreds of offshoot extremist groups that are loosely 
affiliated with these principles?
    Mr. Byman. It is an organization that is less structured 
than the other al-Qaeda affiliates. There are a few main 
branchings but a lot of divisions within, and then divisions 
within the divisions.
    Mr. Deutch. And you focused on Nigeria in your testimony, 
Dr. Byman. How do we encourage Morocco and Algeria as North 
Africa's two most stable countries, to not only work together 
on greater intelligence, but how do we encourage them to take 
the lead on these issues?
    Mr. Byman. The good news is Morocco is already a very close 
American partner on counterterrorism issues. Algeria is 
extremely tricky. There is a history of suspicion and it is 
really an intelligence-led regime in a very nasty way. This 
requires, to me, a much greater awareness on the U.S. part of 
the different players in Algeria. U.S. efforts to cultivate 
different parts of the regime especially as a transition is 
possible there. Regular pressure, and also high level pressure. 
But all that said, much of that will only get us so far and we 
may have to live with what is going to be a very uneasy 
relationship.
    Mr. Deutch. And Mr. Zelin, should the United States be 
providing greater training on counterterrorism border control? 
The French had offered to send 100 military trainers to help 
the Libyans. Should the U.S. be more involved in that as well?
    Mr. Zelin. Yes, I think so. I think the U.S., France, the 
U.K. and some of our other allies who have been dealing with 
some of these issues over the past decade or so, have a lot of 
experience in how to deal with some of these problems in 
different countries. And the fact that especially the French, 
they have historic connections with North Africa and the Sahel 
region, so they have a good cultural understanding in a lot of 
the different players in the region too so they can maybe help 
take a lead in this, but we can also augment it based off of 
our own expertise in these types of trainings.
    Mr. Deutch. I appreciate it. And Mr. Chairman, before I 
yield back, Michael, I think I inadvertently confused your and 
Victor's names. Let me clarify that again we are moved by your 
presence here, and to you and the family thank you very much. 
And I yield back.
    Mr. Poe. Thank the gentleman from Florida. The Chair will 
recognize the gentleman from Texas, Mr. Weber, for 5 minutes.
    Mr. Weber. Thank you Mr. Chairman, I appreciate that. 
Loveladys, thank you all for being here. We appreciate you 
guys. Dr. Byman, I think it was you who said maybe Algeria had 
the best spy network. Was that you?
    Mr. Byman. Yes, it was, sir.
    Mr. Weber. Could you elaborate on that?
    Mr. Byman. The Algerian State has been an intelligence and 
military state for several decades now. And because they faced 
a massive civil war and Islamist uprising in the 1990s, they 
had to develop very good sources and networks simply to 
survive. And so since many of the groups they were fighting, or 
individuals, were regional, their networks became regional. And 
also I will say, in a very nasty way they were trained by the 
Soviets, and the Soviet approach in order to defeat the 
opposition you become the opposition. So they brought a lot of 
groups under the government's banner, directly or indirectly, 
and as a result were able to manipulate and control them, and 
gave them extensive intelligence and influence over the 
opposition but also implicated the government in several of the 
jihadists' worst attacks as well.
    Mr. Weber. So would you say that extends to al-Qaeda and 
the jihadists and forces outside of Algeria that they would 
have extensive knowledge about those groups?
    Mr. Byman. Yes, I would.
    Mr. Weber. Is it safe to say then, in your opinion that 
perhaps they might have had information about this attack 
before it occurred on the BP plant in Algeria?
    Mr. Byman. I believe the answer is no. The attack on the 
Algerian plant was quite bad for the Algerian Government in the 
sense of its most important resource and its reputation. So I 
think they would have tried to stop that had they known about 
it.
    Mr. Weber. So you have obviously been involved and you have 
been studying this group for a while, this country, so it is 
your opinion that had they known then they would have taken the 
necessary steps to stop it, or would they have notified us?
    Mr. Byman. I believe they would have taken the necessary 
steps to stop it, and there is a good chance they would not 
have notified us because they prefer to keep many of these 
things secret.
    Mr. Weber. You don't think they would have enlisted our aid 
or notified BP? They would have just intervened militarily to 
stop the attack itself?
    Mr. Byman. I think that they believe they could handle it 
themselves. They believe they have handled worst in the past 
and that they don't need superpower support.
    Mr. Weber. So they would have been willing to spill blood 
to protect American, well, foreign workers on their soil?
    Mr. Byman. I think they would phrase it as, we are willing 
to spill blood to kill terrorists who are going after Algeria's 
natural resources. The presence of foreigners I don't think 
mattered terribly to them.
    Mr. Weber. Okay. Don't turn your mic off. I am not done 
with you. I think you also named the gentleman that may have 
instrumental in this, Ayman al-Zawahiri?
    Mr. Byman. The al-Qaeda leader. Yes, sir.
    Mr. Weber. Okay. And we know where he is. We have seen him 
at different places, put it that way.
    Mr. Byman. Sir, Ayman al-Zawahiri is the al-Qaeda leader in 
Pakistan who----
    Mr. Weber. Okay.
    Mr. Byman. I don't think we know where he is.
    Mr. Weber. Okay. Is it your professional opinion, since you 
study this stuff and keep up with it, maybe we ought to assign 
one drone to him?
    Mr. Byman. I think right now, sir, there are many drones 
with his name on it. I just don't think we can find him.
    Mr. Weber. Okay. Were you the one in earlier testimony that 
mentioned the use of drones, or was that----
    Mr. Byman. That was me, sir.
    Mr. Weber. Okay. Do you think if the--so you are saying 
that you don't believe that the Algerian Government saw this 
coming. So in essence, does that sort of vindicate our own 
State Department in not only Algeria but in Benghazi that maybe 
they couldn't have seen it coming, or do you think the State 
Department should have seen the attack in Benghazi coming?
    Mr. Byman. I would say that they should have known it was a 
much higher risk environment than what they prepared for. I 
think anticipating any specific attack is going to be 
exceptionally difficult, but I think that the risk environment 
was treated as lower than they should have treated it.
    Mr. Weber. Would you compare that to other areas that we 
have Embassies in, for example, Syria, or any of the other 
Middle Eastern states, where would you have put Benghazi on 
that list?
    Mr. Byman. I would say, well, near the top in terms of 
danger, sir.
    Mr. Weber. So when there was a request for more security 
then that should have been heeded very seriously.
    Mr. Byman. Absolutely.
    Mr. Weber. Okay. Is there a way, to your knowledge--and I 
agree with my colleague Mr. Poe when he says what has been 
done. Is there a way for us to track the movement of these 
terrorists short of just a satellite assigned to them?
    Mr. Byman. Part of it depends on cultivating local sources. 
Part of it is identifying their communications methods. That is 
often the best way. And so what you want is a mix of methods. 
Often the local governments have the best information, and that 
may be the Government of Algeria, or in some cases it may be 
sub-state groups and you want to work with them as well.
    Mr. Weber. Okay, I am out of time. Thank you Mr. Chairman.
    Mr. Poe. Thank the gentleman. Just a point of clarification 
there, Dr. Byman. Is it Algeria's policy when it comes to 
terrorists just to go in with guns blazing? I mean is that 
really their policy?
    Mr. Byman. They do a variety of things. They will try to 
arrest and disrupt in advance. They will try at times to co-opt 
people they can co-opt. They at times bribe them to go in 
different directions. And at times they have killed them in 
large numbers. So it is a mixer.
    Mr. Poe. Thank you. The Chair will recognize my good friend 
and chief irritant from Virginia, Mr. Connolly, for 5 minutes.
    Mr. Connolly. Thank you. Just a paid advertisement before 
my time gets started, Mr. Chairman. Ted Poe and I both believe 
it is time for transparency in the Supreme Court. We want 
cameras in the Supreme Court. So I thank the judge for his 
passion on that subject.
    And Mr. Lovelady, let me add my voice of sympathy to you 
and your family for your loss. It is a terrible thing.
    Dr. Byman, in listening to your answers to questions put to 
you, I assume one could conclude that this whole region of 
North Africa is maybe inherently unstable or certainly less 
secure than some other parts of the world one might want to 
visit.
    Mr. Byman. I think that is a safe assumption, sir.
    Mr. Connolly. There are active insurgencies throughout the 
region?
    Mr. Byman. Yes, sir.
    Mr. Connolly. There are armed militias throughout the 
region?
    Mr. Byman. Yes, sir.
    Mr. Connolly. There are jihadists throughout the region?
    Mr. Byman. Yes, sir.
    Mr. Connolly. There are al-Qaeda elements throughout the 
region?
    Mr. Byman. I would say there are al-Qaeda sympathizers and 
like-minded groups throughout the region.
    Mr. Connolly. Right. And then there are just, what the 
heck, why not put on a bandolier and enjoy terrorism or 
insurgency or there could be local grievances that fuel local 
indigenous militias and insurgencies as well?
    Mr. Byman. Yes, sir.
    Mr. Connolly. And then there are independence fighters like 
Polisario who have been fighting for a long time for what was 
formally Spanish Morocco, is that correct?
    Mr. Byman. It is a long list, sir, yes. Yes, sir.
    Mr. Connolly. So given all of that and given limitations of 
our intelligence and intelligence sharing, you cited Algeria as 
an example, should the United States withdraw or retreat? 
Should we close Embassies and consulates throughout the region?
    Mr. Byman. My view is a strong no.
    Mr. Connolly. Why?
    Mr. Byman. The United States has interests in North Africa, 
and also as my colleagues have testified what is happening in 
North Africa is not staying in North Africa. So we have to deal 
with it one way or another. It is not something we can simply 
turn our back on.
    Mr. Connolly. So we knowingly want to stay engaged and we 
want to minimize risks and try to understand it but we can't 
eliminate it. Is that what you are saying?
    Mr. Byman. Yes, sir.
    Mr. Connolly. And therefore sometimes we understand that 
diplomacy can be dangerous when you go into areas of 
instability or insecurity.
    Mr. Byman. Many diplomats I know, sir, very much believe 
that part of their job is to take on such risks.
    Mr. Connolly. Mr. Gartenstein-Ross, I was intrigued by your 
fairly definitive answer about arming rebels in Syria, and I 
wanted to spend a little bit of time with you on that. Because 
the concern I have is, I don't know, do the good guys wear 
white hats and the bad guys wear black hats? We just go right 
in and say, you we will arm and you we won't? Is that how it 
works?
    Mr. Gartenstein-Ross. Well, I think that as you said, it is 
not as though the bad guys are wearing black. It is difficult 
to distinguish between the factions. There is a lot of mobility 
between them. That is why providing arms that would be a great 
danger to the U.S. or our allies is such a very dangerous game.
    Mr. Connolly. Do you believe that the United States 
therefore should not be arming any of the insurgents, any of 
the rebels, in Syria?
    Mr. Gartenstein-Ross. I am very skeptical of arming them in 
any way. But the administration has said that that is their 
intention. Thus I think that preventing arms that could be of 
most danger such as anti-tank weapons, anti-aircraft weapons is 
the thing that I would focus on. But yes, I am skeptical of the 
entire endeavor.
    Mr. Connolly. You made another point about that which is in 
an odd way arms are fungible. The fact that you give arms to 
somebody you have certified as a good guy does not mean he 
doesn't turn around and sell it, or the arms are stolen or just 
meander over time into the hands we would rather they not be. 
Is that correct?
    Mr. Gartenstein-Ross. Absolutely. And also in many ways the 
good guys and bad guys there, to use kind of a colloquial way 
to refer to them, are in many ways brothers-in-arms. Look at 
when the U.S. designated Jabhat al-Nusra for its linkages to 
al-Qaeda. All of the factions in Syria were outraged that we 
did so. There was no faction that came in and said, oh, it is a 
great thing that they were designated. Instead the designation 
was extremely controversial across the board.
    Mr. Connolly. One of the concerns I have--and I would ask 
you and Mr. Byman to address this in what little time I have 
remaining. But that is, what worries me always about our plans, 
I mean what is Plan B? What happens next? So Ghadafi goes, 
Mubarak goes. Now what? And it is my view that we have actually 
limited leverage in shaping outcomes. And by the way I will 
just throw it in here. I was in Libya and Egypt last year, 
post-revolution both countries. I actually was more hopeful for 
Libya than I was for Egypt and I remain so. Your comment on 
that in the little time we have got left.
    Mr. Gartenstein-Ross. Sir, I very much agree with where you 
are coming from, and would say in addition to that we should 
also be thinking about what our strategic interests are. For me 
particularly when we went into Libya, it wasn't clear what 
strategic interest was being served. It served to hasten events 
in the region which we already did not have a good handle on in 
terms of the effect on Islamic militancy. And I think as a 
result, if you look at the intervention in Libya it actually 
made that particular problem set deeper. I don't think we put a 
lot of thought into that, and likewise in Syria given how 
confusing the situation is, I think there is a great deal of 
danger and a lot of great potential for second order 
consequences that we will regret.
    Mr. Byman. I tend to have a slightly different view on 
this. I am pessimistic we can shape what is going to happen in 
Syria now through a program of arming the rebels, but I do 
believe that a long-term program that does involve arms, but 
especially training, will at least give us some local capacity 
should Assad fall or should Syria fall apart. And that is not 
much, sir. I don't want to say that is something we can take to 
the bank, but it is better than nothing. Syria, the instability 
there is going to emanate throughout the region and we are 
going to have to play a role and having some presence there 
will be helpful.
    Mr. Connolly. Mr. Chairman, I thank you for your 
indulgence, and what I take away from that is we have to stay 
engaged. There are some options but they are limited options, 
and we need to get used to the idea--well, sometimes our 
rhetoric up here you would think otherwise--we are neither 
omnipotent nor omniscient. Thank you.
    Mr. Poe. I thank the gentleman. Mr. Yoho from Florida for 5 
minutes.
    Mr. Yoho. Thank you Mr. Chairman. Gentlemen, I appreciate 
your testimony. Mr. Lovelady, thank you and your family for 
being here and sharing that compelling and moving story, and we 
sympathize with your loss, all of you. And also as Mr. Weber 
brought out, how it brings home the importance of what we do 
here, and I think you have heard that across the board here.
    My questions go back to what we did in Libya, what have we 
learned on Libya? We did the flyovers. We got in, we got out. 
Weapons were left there by other forces, whether it was the 
U.N. or NATO, and we know those weapons wound up leaving Libya, 
going to Algeria, and now we have got the situation where we 
have got to face in Syria, I mean this is coming up, decisions 
are going to have to be made and we don't want to repeat 
mistakes of the past.
    And I am hearing from Mr. Gartenstein-Ross, you were 
talking about we need to arm the people over there, but we have 
done that again and again, and the way I understand it there 
are over 1,000 different groups in Syria. Which one do you arm? 
And if we do that when do you pull out? When is there a line 
that you say, all right, we have done enough, we need to back 
out? I would just like to hear from all three of you what you 
think we should do in that situation so that we don't repeat 
the mistakes. And again going back to Libya, what have we 
learned there that we don't want to repeat?
    Mr. Gartenstein-Ross. To be very clear, sir, I am not 
advocating arming the Syrian rebels. I am actually advocating 
the opposite.
    Mr. Yoho. Okay. I misunderstood you then in your testimony.
    Mr. Gartenstein-Ross. I think that doing so would be 
extremely dangerous.
    Mr. Yoho. I am glad to hear that.
    Mr. Gartenstein-Ross. And the point that I would make, the 
overarching point I would make is simply that the most 
dangerous thing would be giving them arms like anti-aircraft 
weapons and anti-tank weapons. Those are the kind of weapons 
that I think we would most regret sending to the rebel 
factions.
    Mr. Yoho. Okay, I misunderstood you then. Because I thought 
you said that we should do that and I am thinking I don't want 
to do that again.
    Mr. Zelin?
    Mr. Zelin. I think one of the important things that the 
United States needs to do is show a lot of leadership on Syria 
at this point. We are essentially ceding the ground to some of 
our allies in the Gulf, but the problem is, is our allies in 
the Gulf do not have the same interests as us in Syria. We have 
seen many private citizens in these Gulf nations who have been 
providing weapons and a lot of money to a bunch of different 
Salafist organizations within Syria as well as the jihadi 
groups.
    And even when there was sort of this trial run in December 
when there were Croatian weapons that went into Syria via 
Jordan, even though they were supposedly going to the good guys 
they actually ended up in the hands of Jabhat al-Nusra within a 
month. So I am skeptical about providing arms, but I do think 
there are other options in terms of leadership with 
centralizing the opposition in Syria as well as also 
potentially using some type of no-fly zone activity as well. 
And then from there, because you have this centralized military 
capability in Syria that we have relations with, then 
potentially we could work with them after the Assad regime 
falls, if it does, to then deal with some of the other elements 
like----
    Mr. Yoho. Let me interrupt you there. You are talking about 
a no-fly zone. I mean what gives us the authority to do that? I 
mean do we do that unilaterally? Do we go through the U.N., 
NATO? I mean constitutionally we are attacking a nation that 
has not attacked us.
    Mr. Zelin. Sure. I think we would try the U.N. but I think 
that Russia and China would block this. One other area could be 
through the Arab League since this is sort of their 
jurisdiction. And if they want that we could----
    Mr. Yoho. How much effort has the Arab League come out in 
support of this or how much involvement do they have to help 
calm that strife over there?
    Mr. Zelin. Well, we have seen Arab states calling for help 
the past 2 years, even though they themselves probably don't 
want to themselves be involved in the no-fly zone they can 
potentially help fund it since they do have the money, in a 
similar way that happened in the Kuwait war.
    Mr. Yoho. Let me ask you guys this. Does China have 
interest in that area where the attacks were, where Mr. 
Lovelady died, as far as petroleum?
    Mr. Zelin. China has, I would say, two interests, sir. One 
is it is becoming a major importer of petroleum, and of course 
the Middle East is a key area. The second is, it has tried to 
secure contracts in areas where it has----
    Mr. Yoho. All right, so they have a presence there?
    Mr. Zelin. I don't know about that particular part of 
Algeria.
    Mr. Yoho. Are they being attacked, have terrorist attacks 
against their interests?
    Mr. Zelin. They have had kidnappings and attacks in parts 
of Africa, but not what we would call terrorist attacks from 
al-Qaeda.
    Mr. Yoho. Okay, why do you think that is?
    Mr. Zelin. The United States, sir, is opposed by al-Qaeda 
for a whole variety of reasons. Some of it includes our 
policies in the Middle East. Some of it is our values. Some of 
it is simply because we are the face of modernity. It is a mix.
    Mr. Yoho. Do you think it has something to do that China 
just stands--I mean we heard you say something about the 
cowardice. When we show up we don't follow through and so they 
look at us as being weak, maybe, and China not. Do you think 
that has something to do with that?
    Mr. Zelin. I think it is more that China stands on the 
sidelines, sir, and----
    Mr. Yoho. Okay.
    Mr. Zelin [continuing]. And that is main.
    Mr. Yoho. Thank you. Mr. Chairman, thank you.
    Mr. Poe. The Chair recognizes the gentleman from Florida, 
Mr. DeSantis, 5 minutes.
    Mr. DeSantis. Thank you Mr. Chairman. Mr. Lovelady, thank 
you for coming. Sorry for your loss. I definitely believe that 
when Americans are killed people need to be brought to justice.
    This could be for anyone who wants to weigh in. With 
respect to the Benghazi terrorist attack, why has there been in 
your judgment so much trouble bringing the perpetrators of that 
to justice?
    Mr. Zelin. I think part of it has to do with the weakness 
of the central government. They have had a hard time having a 
writ over a lot of the periphery, and actually the periphery 
has been able to blackmail the central government into doing a 
variety of things related to this isolation law that happened 
in their Parliament as well as sacking different ministers.
    Mr. DeSantis. And what about U.S. actions?
    Mr. Zelin. Sure.
    Mr. DeSantis. Why have our actions not borne any fruit thus 
far, given that four Americans were killed? It is not as if 
these were just Americans who just kind of happened to be 
traveling. I mean this was an Ambassador. This was U.S. 
territory in some ways, and yet here we are. I mean we are 
coming up, it is almost a year later and nothing.
    Mr. Zelin. I think part of it just has to do with the 
weakness of the central government and their inability to be 
able to really control what is going on in some parts of the 
country. And therefore, even if the United States would go in 
and go from Tripoli to Benghazi as has been noted by the FBI 
and we have seen in the media, that there is a potential that 
you might have elements then try and attack them. So I think 
you have that issue----
    Mr. DeSantis. No, I understand that. And it is interesting 
when we have the State Department folks in front of Oversight. 
The Libyan leadership said it was terrorism, initially, and 
they got really upset when we said it was because of a YouTube 
video. So I think our administration hurt the cause in that 
respect. The fact that we haven't brought anybody to justice, 
is that something that is going to likely deter future 
terrorist attacks? It seems to me that they figure that they 
have gotten away with it. It is likely to embolden more people 
to want to attack U.S. interests abroad. Does anyone disagree 
with that?
    Mr. Zelin. No, I fully agree.
    Mr. DeSantis. With respect to the Algerian attack, how did 
the overthrow of Ghadafi, the revolution in Libya, did it play 
any role in that? I know that there a lot of jihadists that 
were able to get weapons and operate more freely. So was there 
a linkage, in your judgment, to those Islamic fighters and the 
attack that happened?
    Mr. Gartenstein-Ross. Absolutely. One linkage is through 
arms. The other linkage is that Libya was used as a staging 
ground for the Algeria attack.
    Mr. DeSantis. Do all the witnesses concur with that?
    Mr. Zelin. I also think part of it had to do with the 
French intervention of northern Mali as well, since a lot of 
the individuals melted away, as Dr. Byman mentioned, and went 
into northern Niger as well as southern Libya, so then they 
were able to use that as another different type of base for 
this attack. And one could argue that the attack on the In 
Amenas base was in retaliation to the French intervention in 
northern Mali.
    Mr. DeSantis. With Afghanistan there was this concern, I 
mean it is still there, but al-Qaeda used that as a training, 
training fighters as a base of operations. And if you look 
across northern Africa, I mean it just seems to me that you 
could easily have parts of northern Africa end up with al-Qaeda 
type fighters, Islamic fighters using that. Is that something 
that we should be concerned about?
    Mr. Byman. In my view, absolutely. It is harder than the 
past because of the drone program because of greater U.S. 
attention, but when you have these ungoverned areas, these 
become extremely dangerous if they are exploited by al-Qaeda.
    Mr. Gartenstein-Ross. And I would add that another area of 
concern is not just training but also places where people can 
actually engage in live action fighting. Syria is one example. 
Mali has been one example. And let us watch the situation in 
Egypt. That could end up a very chaotic situation. I don't 
think that jihadists will be at the forefront of any sort of 
confrontation, but they certainly could end up one of the major 
beneficiaries.
    Mr. DeSantis. And with Syria, this has been going on for a 
long time. As this has dragged on longer and longer that is 
actually, you have seen more and more of the foreign fighters 
go. So to the extent to which this turmoil in Egypt lasts 
longer and you have fighting, it seems to me that that would be 
a magnet for a lot of these fighters in northern Africa. So it 
is a very, very dicey situation.
    Mr. Gartenstein-Ross. I agree that it is. Like I said, I 
don't think that jihadists will be at the forefront in Egypt. 
They simply don't have the incentive to do so. If you have 
clashes between Brotherhood supporters and supporters of the 
military, that is a great chaotic situation where they can 
quietly build up their capabilities without being at the 
forefront of violence on the streets.
    Mr. DeSantis. Well, I thank the witnesses. Thank you, Mr. 
Lovelady, for your appearance, and I yield back to the 
chairman.
    Mr. Poe. Thank the gentleman. The Chair will recognize the 
gentleman from California, Mr. Rohrabacher, for 5 minutes.
    Mr. Rohrabacher. Thank you very much.
    Mr. Chairman, I would like to submit for the record a blog 
article by Walid Shoebat who claims to be a former member of 
the Muslim Brotherhood and has some intelligence information 
that I think would be very valuable to this hearing.
    Mr. Poe. Without objection, be made part of this hearing's 
record.
    Mr. Rohrabacher. Thank you very much.
    I would like to ask the witnesses, do you know, is there 
any evidence of the Egyptian Muslim Brotherhood's involvement 
in the attack that resulted in the death of our Ambassador in 
Benghazi?
    Mr. Gartenstein-Ross. No, sir. I know of absolutely no 
information suggesting that.
    Mr. Rohrabacher. Okay. Anybody?
    Mr. Zelin. No.
    Mr. Byman. Not that I have seen, sir.
    Mr. Rohrabacher. Okay, so do you folks, or are you aware of 
a terrorist organization called Ansar al-Sharia?
    Mr. Gartenstein-Ross. Yes, sir. There are multiple branches 
in multiple countries.
    Mr. Rohrabacher. Okay. And so this is a known terrorist 
organization. Is it Sharia? I am sorry, al-Sharia, is that how 
you pronounce it? So this is a known terrorist organization?
    Mr. Gartenstein-Ross. Sir, it is a known jihadist 
organization in a number of countries. They are not actually 
engaged in terrorism on the ground, but they make clear that 
they are aligned with Salafist jihad ideals such as the ideals 
of al-Qaeda. This is something that is very clear from the 
social media that the group puts out in countries like Tunisia 
and Libya.
    Mr. Rohrabacher. Okay. Were any of the members of that cell 
to your knowledge arrested for the attack that took our 
Ambassador's life in Benghazi?
    Mr. Zelin. I believe there have been one or two individuals 
who have been detained in Tunisia as well as in Libya, but both 
have then been released based off of lack of information.
    Mr. Rohrabacher. Mr. Shoebat reports that six members of 
Ansar al-Sharia were arrested in Libya, and presents a document 
that indicates that they were involved and that they are 
Egyptians of course and not Libyans. Have any of you heard 
anything about that at all?
    Mr. Byman. I have seen some press reports about Egyptians 
involved in the attack, sir, but as far as their affiliation I 
do not know.
    Mr. Rohrabacher. Okay. So Mr. Shoebat who claims to have 
been a member of the Muslim Brotherhood and may well have been 
a member of the Muslim Brotherhood, I just haven't verified it 
yet, suggests that this terrorist organization has direct ties 
to the Muslim Brotherhood in Egypt. Is that something you know 
about?
    Mr. Gartenstein-Ross. Sir, I wouldn't infer that just from 
the national origin of individuals involved. We know for a fact 
that there is a large stream of Egyptian extremists who have 
gone into Libya. There are camps, for example, one set of camps 
is known as the Jamal Network. And the individual who runs them 
is himself Egyptian. That also is a camp that has been 
connected directly to al-Qaeda.
    Mr. Rohrabacher. Well, in terms of this position, this is 
that it was not al-Qaeda but this Ansar al-Sharia terrorist 
cell that was involved in the attack, and that they were 
Egyptian and that they are--in fact, part of his report which I 
read and looked at the other night is a news clip that is taken 
from a camera that one of the terrorists, or people who were 
involved in the terrorist attack, or at least that is what they 
say. You could see armed people going back and forth, shooting 
going on, and some of the terrorists suggesting that they had 
been sent by Morsi, meaning the President of Egypt. Is the 
President of Egypt, he has a long close ties with the Muslim 
Brotherhood, does he not?
    Mr. Zelin. Yes, Mohamed Morsi was the President of Egypt 
before he was dispatched the other week, though I find these 
claims not that credible. There is no evidence to suggest based 
off of anything I have seen that the Muslim Brotherhood is 
linked to Ansar al-Sharia in Libya or that any members of the 
Muslim Brotherhood were involved or that Mohamed Morsi told 
members of the Brotherhood to go to Libya to conduct an----
    Mr. Rohrabacher. Okay, so you don't know of any evidence 
that suggests that.
    Mr. Zelin. No, sir.
    Mr. Rohrabacher. Okay. And I would appreciate it if you 
guys would read this report and give me your personal analysis 
of it. Did President Morsi ever, during recent years, talk 
about the return of the Blind Sheikh--is that how you pronounce 
it?--the Blind Sheikh that we have here in custody in the 
United States?
    Mr. Gartenstein-Ross. Yes, sir. That was one of the demands 
that he made to the U.S.
    Mr. Rohrabacher. But he was, President Morsi himself has 
made statements that this is important to him, I would say, and 
that it is a priority.
    Mr. Gartenstein-Ross. Yes, sir. It is something that he 
asked the U.S. to do. In Egypt this is a rather big political 
issue which he was clearly tapping into.
    Mr. Rohrabacher. Or leading. Or leading. Sometimes it is 
hard to tell whether a political leader is tapping into 
something in the population or if someone is creating it.
    Mr. Chairman, I thank you very much for this hearing, and I 
think that the information that we were just discussing may 
well deserve a lot closer attention. And I would like the 
opinion of your witnesses today on this report. And if indeed 
Mr. Shoebat has the documentation which he seems to be 
presenting here, unless this is--by the way what I made part of 
the hearing is a document that suggests it is from Libya, about 
the six prisoners who are Egyptian admitting that they were 
part of this terrorist unit and that it was connected with the 
Muslim Brotherhood, unless that is a forged document. I think 
we should pay close attention and get to the bottom of this.
    Thank you very much, Mr. Chairman, for holding this hearing 
today and perhaps opening up an area or directing our attention 
to something that could help explain what the hell happened in 
Benghazi. Thank you, Mr. Chairman.
    Mr. Poe. Ask the witnesses to respond in writing to the 
request by Mr. Rohrabacher from California.
    And one last question, Mr. Gartenstein-Ross. You alluded to 
the fact the United States may have a policy regarding the 
people who committed the Benghazi attack. What is the policy of 
the U.S. for the future? To take those people out or to capture 
those people and bring them back? What is the policy, if you 
know what it is?
    Mr. Gartenstein-Ross. Sir, I don't know what our policy is 
with respect to the perpetrators.
    Mr. Poe. All right. And the Chair, without objection, will 
enter into the record an article out today in Vanity Fair 
regarding the timeline on the 40 minutes in Benghazi.
    All members have 5 days to submit statements with questions 
and extraneous materials for the record subject to the length 
limitation of the rules. I thank all the witnesses for being 
here, the Lovelady family especially for being here today. This 
subcommittee meeting is over. Thank you very much.
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<F-dash>\<Copyright><pound><Rx><Rx><pound><script-l><script-l><variable>
                                   \
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
              <n-iden-3><box><natural><natural><variable>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
     <Register><pound><star><natural>aba<star><star><box><natural>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
     <Register><pound><star><natural>aba<star><star><box><natural>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
     <Register><pound><star><natural>aba<star><star><box><natural>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
